CD

' *

7844

* M

r
Xi u

FILED
OEC 2 1 2020
IN THE
SUPREME COURT OF THE UNITED STATES

PAUL PATRICK JOLIVETTE

— PETITIONER

(Your Name)

vs.

UNITED STATES DISTRICT OOURT OF
CALIFORNIA NORTHERN DISTRICT

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

___________ UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT____________

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

PAUL PATRICX JOLIVETTE

(Your Name)
P.O. Box 8101. T40846.

(Address)
San Luis Obispo Ca, 93409

(City, State, Zip Code)

(Phone Number)
1 of 20

received
APR 2 3

QUESTION(S) PRESENTED
1.

Did the United States Court of Appeals For The Ninth Circuit

Order in " DENIAL " of a writ of mandate to enforce a judgment Registeered
and entered in the United States District Court of California Northern
District to command and compel the USDC Northern to issue writs of
enforcement to full satisfaction and accord to all terms, conditions,
stipulations and monetary award as expressed in the Abstract of Judgment,
after the People of the State of California's Specific Waiver of immunity,
and all franchise protection as expressed in the Certified Abstract of
Judgment, action DENY the Petitioner First essential right to Due Process
and Equal Protection as guaranteed by the Fourteenth Amend U.S. Constitution,
and Specifically Section 5, laws and treaties, in accordance to 28 USC § 3202.

2.

Did the Respondent abuse it's discrection by failing to exercise

authority/jurisdiction under Title 42 USC § 1983, and under " Equity"
supplemental jurisdiction for Civil Contempt in accordance to the expressed
terms, conditions, stipulation, and monetary award in the Abstract of Judgment.

2 of 20

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A j Certified Abstract of Judgment USDC No. 3;14-CV-80001-RS; San Francisco County
Recorders Office # D0C-2014-J829356-00, Jan 23, 2014.

APPENDIX B

Order 9th Cir Court of Appeals No. 20-72715, Denied, 10/13/2020

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

3 of 20

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix_L
the petition and is

to

3-14-CV-80001-RS
1/02/2014
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

The opinion of the United States district court appears at Appendix_b
the petition and is
20-72715
10/13/2020
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
_; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.
4 of 20

to

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was -10/13/2020_____________
[x] No petition for rehearing was timely filed in my case, was Not Accepted By Court.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. ___A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

5 of 20

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

EX Parte Young, 209 U.S. 123 28 S Ct 441 1908 U.S. Lexis 1726 52 L Ed 714
Connally v. General Construction C., 269 U.S. 385
Blackledge v. Perry, 417 U.S. 21
Renoir v. Redstar Corp, 123 Cal App 4th 1145, 20 Cal Rptr 3d 603
Rent A Center W. Inc. v. Jackson, 561 U.S. 63 130 S Ct 2772
Merma v. New York, 423 U. S. 61 96 S Ct 241
Haines v. Kemer 404 U.S. 519 92 S Ct 594
Nat’l League of Cities v. Usery, 426 U.S. 833
Del Prado v. B.N. Dev Co. (2010) 602 F 3d 660
Associateted Bus Tele Corp. v. Greater Capitol Corp, 128 F R D 63 65 n 3 ( D N J 1989)
Stanford v. Utley 341 F 2d 256 268 270 (8th Cir 1965)
Phelps v. Alameda, (9th Cir 2009) 569 F 3d 1120
U.S. v. Fabre 978 F 2d 1262 1992 U.S. App Lexis 34584 (7th Cir 1997)

STATUTES AND RULES
28 USC Section 3202
28 USC Section 1603 (a), (F)(1)(A)
28 USC Section 1331
28 USC Section 1997e(a)
28 USC Section 1963 and 1738
28 USC Section 1651
28 USC'Section
Federal Rules of Civil Procedure 59 (e), 60 (b)
Administrative Procedure Act Title 5 USC Section 701-706

OTHER
Constitutional Authority
U. S. Constitution Art I, Section X
U.S. Constitution Art Iv Section 1.
U.S. Constitution IV, V., VI, VIII, XI, and XIV Amendments
6 of 20

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

This case involves a Federal Question sufficient to sustain jurisdiction upon the grounds
of a complete denial of due process of law to enfomce a lawful remedy at law after full disclosure
notice and opportunity to be heard and defend as a matter of law, and knowingly refusing to answer
under penalty of perjury and full commercial liability to the facts stated therein, and default has
been intered into the record as evidenced by the Certified Abstact of Judgment in favor of the Plaint
-iff and against the defendant, lodged in the record, and enforceable as a matter of law.
U.S. Const XIV Amendment, Denial of Due Process and Equal Protection under the law to enforce
a lawful remedy .
28 USC Section 1331, Federal Qustion

7 of 20

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
PAUL PATRICK JOLIVETTE, PLAINTIFF
UNITED STATES DISTRICT COURT OF CALIFORNIA NORTHERN,

RESPONDENT

PEOPLE OF THE STATE OF CALIFORNIA, REAL PARTY IN INTEREST

RELATED CASES
A.EXHAUSTION of Administrative Proceeding Adjudicator Court.

Case NO.04-2013-87237-CV-J2

B.Registration of Judgment in.the United States District Court of Nevada, 2:13-MS-0091
C.Registration of a Sister State Judgment in the United States District Court
of California Northern District.

Case No. 3:14-MC-8001-RS

D. Superior Court of Solano County cas No FCR211674

8 of 20

STATEMENT OF THE CASE

This action originates from a counter-claim from an unlawful conviction in a criminal action
in wanton disregard for authority both personal and subject matter jurisdiction, that has been properly
challenged by special appearance to invoke said challenge to the People of California's authority
as the prosecution attorney through the Attorney General office, who has confessed No Jurisdiction
had ever been properly obtained in the first instance as an exception to the general rule.

STATEMENT OF FACTS

1.

\ in complete
This action originates from a unconstitutional / invalid criminal conviction

disregard for authority both personal and subject matter jurisdiction, as confessed by the A.G.
and evidenced by the Certified Abstract of Judgment in the court record, 3:14-CV-80001-RS.
2.

Plaintiff has followed all court procedures to exhaust informal remedies prior to seeking

court intervention to address all grievances and to invoke a challenge to the Attorney General's
authority in the action at bar pursuant to 28 USC § 1997e, and Title 5 USC § 701-706, of the
Administrative Procedure Act, and has obtained a judgment in the Plaintiff’s favor and against the
People of California, Real Party in Interest in this action. Mandating Release of Plaintiff.
4.

Plaintiff has Registered said judgment in the United States District Court of Nevada in

case no. 2:13-MS-00091. on 11/19/2013, which became final on 12/30/2013.
5.

Plaintiff then Registrered the USDC Nevada Judgment in the United States District Court of

California Northern Disctrict in case no. #:14-CV-80001-RS, on Jan 02. 2014, which became final
on Jan 12, 2014, resulting in the failure of the court to issue writs / orders for enforcement
and a complete denial of Due Process and Equal Protection under the law, in addition to the aiding
and abetting of unconstitutional false imprisonment of the Plaintiff, without a remedy at law.

9 of 20

REASONS FOR GRANTING THE PETITION
1.

Plaintiff asserts that there is no verified evidence in the record that the U.S. Supreme

Court will not take jurisdiction if it should not: but it is equally true that it must take
jurisdiction if it should. The Judiciary cannot, as the legislature may, avoid a measure because
it approaches the confines of the Constitution. The court cannot pass it by because it is doubtful.
With whatever doubts, with whatever difficulties, a case may be attended, the court must decide it.
The court has no more right to decline the exercise of jurisdiction, which is given, than to usurp
that which is not given. The one or the other would be treason to the constitution. Questions
mau occur which the court would gladly avoid, but the court cannot avoid than. All the court can
do is to exercise its best judgment, and conscientiously perform its duty, and the Plaintiff
denies any verified evidence exists to the contrary .Ex Parte Young, 209 U.S. 123 28 S Ct 441 1908.
2.

Plaintiff asserts that there is no verified evidence in the record that Plaintiff has not

been denied Due process and Equal Protection by the Void Process initiated by the PEOPLE OF
CALIFORNIA, in violation of the Fourteenth Amendment, which provides that No State shall deprive
any person of life, liberty, or personal property without due process of law, nor shall it deny
to any person within its jurisdiction the equal protection of the law, as the first essential of
law is Due Process, Connally v. General Construction Co.,269 U-S. 385, and the Plaintiff denies
any verified evidence exists to the contrary.
3.

Plaintiff asserts that there is no verified evidence in the record that District Courts

of the United States will not restrain a state officer (Attorney General) from executing an
"Unconstitutional order/judgment entered by the State in wanton disregard for authority both
personal and subject matter in case no. [FCR211674] entered in Solano County Superior Court of
California, and confessed by the A.G. as evidenced by the Certified Abstract of Judgment in the
record, and the Plaintiff denies any verified evidence exists to the contrary?
4.

Plaintiff asserts that there is no verified evidence in the record that this action does

not originate from a counter-claim to the unconstitutional entry of order/judgment as stated .
above that has violated the rights and priveges of the Plaintiff which has been guaranteed by
the U.S. Constitution, and has caused the Plaintiff to suffer irreparable damage and injury by
the continued false imprisonment and failure to enforce a lawful remedy by agreement of the
10 of 20

- parites as evidenced by the AQJ in the record, as confessed by the Defendants, and waiver of all
immunity protections under the Eleventh Amendment as expressed in the AOJ, and may be held in Civil
Contempt and awarded the same expressed terms, conditions, stipulation and Monetary award as granted
in the original judgment entered, under said contempt authority of the Federal Court, to correct a
miscarriage of justice and make the Plaintiff whole as a matter of law, and the Plaintiff denies any
verified evidence exists to the contrary.
5.

Plaintiff asserts that there is no verified evidence in the record that the Judgment filed

and registered in the United Sates District Court Northern District of California in case Number
2:14-CV-80001-RS, on Jan 02, 2014, and recorded in the San Francisco County Recorders Office on
Jan 23, 2014, Doc-2014-J829356-00, does not grant/authorize a Federal Court to utilize . . its power
under civil contempt, to correct a illegal and invalid order of the State Court entered tinder
Color of State law" in complete denial of Due Process and Equal Protection under the 14th Amend,
of the U. S. Const., is not only void as a matter of law, because it conflicts with the supreme
authority of the Federal Constitution, and the Plaintiff denies any verified evidence exists to the
contrary.
6.

Plaintiff asserts that there is no verified evidence in the record that the governing

autority for the enforcement of judgments entered in the USDC is not 28 USC § 3202(A), which states,
"A judgment may be enforced by any of the remedies set forth in this subchapter, and
a court may issue other writs pursuant to section 1651 of Title 28, as necessary to
support such remedies" (for the enforcement of monetary and performance judgments)
and the Plaintiff denies any verified evidence exists to the contrary.
7.

Plaintiff asserts that there is no verified evidence in the record that Plaintiff has not

tendered to the Ninth Circuit Court of Appeals a Writ of Mandate in case number 20-72715, that was
unlawfully denied in contravention of the Constitutional guarantee to enforce lawful remedies entered
by judgment after full due process of law, and waiver of all 11th amendment immuities, and confessiion
of entry of a order/judgment in wanton disregard for authority under color of state law, to the
deprivation of the Plaintiff right of liberty, without due process as confessed by the People of
California, warranting the intervention by extraordinary remedy of the Ninth Circuit, and now this
court as a matter of law, and the Plaintiff denies any verified evidence exists to the contrary.
11 of 20

8.

Plaintiff asserts that there is no verified evidence in the record that the appropriate remedy

at law is not a Writ of Mandate pursuant to Title 28 USC § 3202(A), for the enforcement of a judgment
under 28 USC §1651, to command and compel a inferior court to perfoim thier ministrial duty under the
law arid issue writs / orders for the enforcement of lawful judgments entered by agreement of the
parties as evidenced by the judgment entered and the Certified record in support thereof, and the
Plaintiff denies any verified evidence exists to the contrary.
9.

Plaintiff asserts that there is no verified evidence in the record that a District Court does

not use applicable State law through Fed R. Civ P. R. 69, to enforce a judgment of the USDC after it
has become final, through the Registration of said judgment under 28 USC § 1963, from the United
States District Court of Nevada in Cas No. 2:13-MS-00091,

11/19/2013, and the Plaintiff denies any

verified evidence exists to the contrary.
10.

Plaintiff asserts that there is no verified evidence in the record that the Registration of

the Judgment under 28 USC § 1963, is a praid procedure that does not require the intervention of a
judge, (Patco, 699 F 2d 544), as " upon receiving a certified copy of the judgment, the clerk of the
court in which the judgment is being registered, merely enters the Sister State Judgment into the
court docket," (1992 U.S. App Lexis 4 id): Associated Business Telephone Gorp. v. Greater Capitol
Corp,128 F R D 63 65 n 3,(D N J 1989), and the Plaintiff Denies any verified evidence exists to the
contrary.
11.

Plaintiff asserts that there is no verified evidence in the record that " Once a Certified

copy of the Final Judgment has been Registered' in a USDC, the Judgment is not treatedas if it were
an original judgment of the registering court" as the judgment registered is the equivalent to a new
federal^ judgment, obtained by filing an independant action on the original judgment. Standford v.
Utley, 341 F 2d 265 268 270,(8th Cir 1965); U.S. v. Fabre, 978 F 2d 1262 1992 U.S. App Lexis 34584
(7th Cir 1997); Res Judacata and Collateral Estopple precluding relitigation of a final Judgment.
Del Prado v. B.N. Dev Co., (2010) 602 F 3d 660, and the Plaintiff denies any verified evidence
exists to the contrary.

12 of 20

12,

Plaintiff asserts that there is no verified evidence in the record that In re Bungardner v.

Kapke, 2006 U.S. Dist lexis 72728 [E.D, Cal. Oct 04, 2006] did not state, 'The court assignee sought
to amend the judgment issued from the U.S. District Court of the Southern District of Florida, it
appears from the documents filed by Vinyard, that she is asking this court to amend a 1993 judgment
entered in the U.S. District Court For The Southern District of Florida. That judgment appears to
relate to proceedings in the U.S. Bankruptcy Court For The Southern District of Florida. • • her Motion
request this court to amend the Judgment. This Court is unable to discern what, if any, jurisdictional
basis exists for this court to amend a judgment entered by the USDC of Florida."
Simple Registration of a Foriegn Judgment under 28 USC § 1963, is a general matter, motions to
amend, or modify judgments are made pursuant to Fed R Civ Proc § 59(e), or 60(b). However, if a
motion is made pursuant to Fed R Civ Proc § 59(e), and is not brought within Ten (10) days after entry
of judgment, the District Court lacks jurisdiction to hear the motion." Carter v. United States, 973
F 2d 1479 1488, (9th Cir 1992). The Ten (10) day requirement is clearly Not met in the instant action
with respect to the judgm ent entered on Jan 02, 2014, and became FINAL on Jan 12, 2014, for the
Record, and the Plaintiff denies any verified evidence exists to the contrary.
13.

Plaintiff asserts that there is no verified evidence in the record that a Judgment may not be

Registered in many Districts, and any motions to modify, or amend the judgment under Fed R Civ Proc
§ 60(b), must be presented to the original court that rendered judgment. Board of Trustees Sheet
Metal Workers Nat. Pention Fund v. Elite Erectors Ttv». •> 212 F 2d 1031 1034,(7th Cir 2000), and the
Plaintiff denies any verified evidence exists to the contrary.
14,

Plaintiff asserts that there is no verified evidence in the record that in the case at bar the

JUDGMENT Registered in the UNITED STATES DISTRICT COURT OF CALIFORNIA NORTHERN DISTRICT in Case No.
3:14-CV-8001-RS, Jan 02, 2014, has not become Final on Jan 12, 2014, as a matter of law and Enforceable
to all terms, conditions, stipulations and monetary award granted as expressed in the Certified A0J,
as the time limit for appeal has long since expired, Hilao v. Estate of Marcos, 536 F 3d 980.
" State law does not divest a Federal Court of authority / jurisdiction to enforce it's own Judgments
entered into the record", in complete denial of due process of law and right of enforcement of a lawful
remedy, and the Plaintiff denies any verifed evidence exists to the contrary.
13 of 20

15.

Plaintiff asserts that there is no verified evidence in the record that this is a second or

successive petition as it does not present a new claim, e.g. "If it attacks the order entered on
procedural grounds, or the defect in the integrity of the proceedings, as in the case at bar, and
therefore is not a second or successive proceedings, Phelps v. Aleroeda, (9th Cir 2009) 569 F 3d 1120,
and the Plaintiff denies any verified evidence exists tothe contrary.
16.

Plaintiff asserts that there is no verified evidence in the record that the California

State Court of Appeals has not enforced a judgment against a California resident circumventing the
Debtor's objection. The Court reasoned that it would be against Pulic Policy to protect an entity who
wmgfully sought to circumvent the substantive laws of one jurisdiction, by- enlisting the aid of courts
in another jurisdiction. Pettis v. Municipal Court, (1970) 12 Cal App 3d 604 85 Cal Rptr 233, and
Plaintiff denies any verified evidence exists to the contrary.
17.

Plaintiff asserts that there is no verified evidence in the record that this United States

Supreme Court does not

have a Legal Duty ’to the Plaitiff under the 14th Amend U.S. Const, to safe

guard and protect the Plaintiff's Right to "LIBERTY" and not be "FALSELY IMPRISONED" after redress of
grievance by a Special Appearance to invoke a challenge to the People of California's authority/jurisd­
iction, and confessed by same that none was ever obtained making all orders therefrom null, void and
moot as a matter of law, Mandating this Court Intervention under your superior authority to command
and compel the United States District Court Northern District of California, Respondent to perform
their official duty under the Full Faith and Credit Clause, U.S. Const. Art. I., § IV, and Civil
Procedure for enforcement of judgments, which allows for court judgments to be rendered in one court,
sued on in a second court, and then the judgment on judgm ent of the second court, successively sued
on in a third court, and enforced by the latter court. The same result occurs when a Plaintiff moves
it's judgment between Federal and State Courts. U.S. Dist Court of Appeals of Hie Fifth and Eleventh
Circuits, (2010) 602 F 3d 660; Del Prado v. B.N. Dev Co.,( Aprit 05, 2010), Res Judicata and
Collateral Esstoopel Apply, in the case at bar, and the Plaintiff denies any verified evidence exists
to the contrary.

14 of 20

18-

Plaintiff asserts that there is no verified evidence in the record that this U.S. SUPREME

Court does not have Authority / Jurisdiction to issue a writ of Certiorari to correct this miscarriage
of justice as Constitutional Oath Bound Officers of this Court to Enforce the law as they are written,
and to protect Republican Form of Government to redress wrongs suffered by one of the people of these
United States "Plaintiff" as the People of California RPI have waived all immunities under the Eleventh
Amendment, as expressed in the Certified Abstract of Judgment. The immunity defenses are not available
to a state government official and/or private individuals who have conspired with other entities to
violate the Plaintiff's inalienable private contractual, and Constitutional rights to enforce a lawful
remedy. Brandon v. Holt,(1985) 469 U.S. 464 473 [ 105 S Ct 973 83 L Ed 2d 878]:
Connor v. City
of Santa Ana, (9th Cir 1990) 897 F 2d 1487 1492 n 9; 28 USC § 1603(a), (F)(1)(A), Waiver of all
Immunities, and the Plaintiff denies any verified evidence exists to the contrary.

CONCLUSION
Werefore, in sum, based on the foregoing argument, undisputed affidavits of facts in the record,
and Certified Abstract of Judgment lodged in the court Record, the Plaintiff moves this honorable court
to issue and grant a Writ of Certiorari in this action to correct this miscarriage of justice under
color of state law, and to command and compel the Respondent to uphold thier Constitutional Oaths of
Office and perform their legal duty as impartial adjudicators in the specific performane of their
ministerial duty to issue writ and orders for the enforcement of the expressed judgment as it has been
written to full satisfaction and accord with all terms and conditions therein;
2.

or in the alternative issue an alternate order to show cause, why if any, the relief requested

should not be granted, by Counter-Affidavit signed under penalty of perjury before a Notaru Public;
3.

For any/all further relief known to this court in the interest of Due Process, Equal Protection

and Justice under the law.
VERIFICATION
I the under signed Plaintiff/Petitioner has read the foregoing and know it's contant. The Facts
stated herein are true, correct, complete, and not misleading. Admissible as evidence as an exception
to the hearsay rule of the evidence code, under penalty of perjurt of the laws of California Republic.
15 of 20

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

4 c 0*1 - Ip'll

16 of 20

